                                                                        Issue Date
                                                                              January 12, 2012
                                                                        Audit Report Number
                                                                              2012-PH-0003




TO:                 Daniel J. Sullivan, Acting Director, Office of Multifamily Housing
                      Development, HTDP
                    //signed//
FROM:               John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                      3AGA

SUBJECT:            HUD Approved Multifamily Accelerated Processing Program Lenders as
                    Required but Did Not Adequately Select Lenders to Monitor


                                               HIGHLIGHTS

    What We Audited and Why

                    We audited the U.S. Department of Housing and Urban Development’s (HUD)
                    monitoring of its Multifamily Accelerated Processing program lenders. The audit
                    was performed based on a hotline complaint and the Office of Inspector General’s
                    annual audit and strategic plan to help HUD improve its fiscal responsibilities.
                    The objective of the audit was to determine whether HUD adequately approved
                    and selected program lenders to monitor.


    What We Found


                    HUD generally approved program lenders as required but did not adequately
                    select lenders to monitor. The audit showed that 5 of 51 program lenders1 with
                    loan originations totaling almost $88 million had not been monitored. HUD had
                    developed improved procedures for selecting lenders to monitor, but it had yet to
                    complete or implement the new procedures.


1
    An additional 39 approved lenders had not originated any loans.
What We Recommend


           We recommend that HUD complete and fully implement its new procedures for
           selecting lenders to monitor. We also recommend that it immediately classify its
           approved lenders as low-, moderate-, or high-volume lenders in accordance with
           its updated policy. After it appropriately classifies its lenders, we recommend that
           HUD prepare and implement a monitoring schedule based on the number and type
           of monitoring reviews it will perform for each lender.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a discussion draft audit report to HUD on December 16, 2011, and
           discussed it with HUD officials during the audit and at an exit conference on
           December 22, 2011. HUD provided written comments to our draft audit report on
           January 3, 2012. It generally agreed with the conclusions in the report. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix A of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                          4

Results of Audit
      Finding: HUD Did Not Adequately Select Lenders to Monitor   5

Scope and Methodology                                             7

Internal Controls                                                 8

Appendixes
   A. Auditee Comments                                            10
   B. Program Lenders Not Monitored                               12




                                          3
                       BACKGROUND AND OBJECTIVE

Since 1937, the U.S. Department of Housing and Urban Development’s (HUD) Federal Housing
Administration (FHA) multifamily mortgage insurance has been a major source of financing for
affordable housing. Each year, FHA insures billions of dollars in multifamily housing mortgage
loans to facilitate the construction, substantial rehabilitation, purchase, and refinancing of
apartments and health care facilities. FHA mortgage insurance protects lenders against financial
losses stemming from a borrower’s default. When default occurs, a lender may elect to assign the
mortgage to HUD and file an insurance claim with HUD for the unpaid principal balance. HUD
processes multifamily loan insurance applications through its multifamily hubs and program centers
throughout the United States.

In May 2000, HUD implemented multifamily accelerated processing procedures to establish a
national “fast-track” process to reduce the amount of HUD review time and ensure an acceptable
level of risk for HUD’s multifamily mortgage insurance programs. A key feature of multifamily
accelerated processing allows lenders to conduct the underwriting of the loan and submit a package
directly to the hub or program center for mortgage insurance. The hub or program center reviews
the lender’s underwriting and decides whether to provide mortgage insurance for the loan. The
multifamily accelerated processing method may be used for refinancing or processing new
construction or substantial rehabilitation of multifamily developments including apartments, health
care facilities, and apartments in urban renewal areas.

Prior to using multifamily accelerated processing, a lender must first submit an application packet to
HUD’s Lender Qualification and Monitoring Division. The division currently has 11 staff persons
that are responsible for reviewing applications, monitoring lenders and providing general oversight
of the approved lenders and performance. The division reviews the application packet to determine
if the lender meets its qualification requirements. The lender’s application packet must provide
evidence that it is an FHA-approved multifamily mortgagee, financially sound, and maintains
employees that have met multifamily training and underwriting experience. The lender must also
provide evidence supporting satisfactory multifamily loan processing.

Once the lender is approved to participate in the program, the division is required to monitor the
lender’s performance to ensure loans processed using the multifamily accelerated processing
method comply with FHA underwriting standards. There are 90 lenders approved to submit and
process loan applications for multifamily mortgage insurance using the multifamily accelerated
processing method.

The objective of the audit was to determine whether HUD adequately approved and selected
program lenders to monitor.




                                                  4
                               RESULTS OF AUDIT

Finding: HUD Did Not Adequately Select Lenders to Monitor

HUD generally approved program lenders as required but needed to make sure that all of its
program lenders were monitored according to its policy. The audit showed that 5 of 51 program
lenders with loan originations totaling almost $88 million had not been monitored as
recommended by its written policy. This occurred because HUD did not ensure all lenders were
monitored and its existing policy failed to define which lenders should be classified as low-,
moderate-, or high-volume lenders. Although HUD began reevaluating its monitoring processes
and procedures in November 2008, it had yet to complete its reevaluation or complete the update
to its policy. HUD needed to immediately classify its approved lenders as low-, moderate-, or
high-volume lenders as described in its draft policy and implement a monitoring schedule which
should help to mitigate the risk to the FHA insurance fund.



 HUD Generally Approved
 Program Lenders as Required


              According to chapter 2 of HUD’s lender qualification multifamily accelerated
              processing procedures, lenders are required to meet several qualification standards
              prior to participating in the program. Specifically, a lender must provide evidence
              that it is an FHA-approved multifamily mortgagee, financially sound, and maintains
              employees that have met multifamily training and underwriting experience
              requirements. The lender must also provide evidence supporting satisfactory
              multifamily loan processing.

              We reviewed 11 lender applications to determine if approved lenders met
              qualification requirements. HUD generally ensured that the 11 lenders met
              qualification standards. Specifically, documentation was generally available
              showing that the approved lenders were FHA-approved multifamily mortgagees,
              financially sound, employed multifamily staff that met training and underwriting
              requirements, and provided evidence showing satisfactory multifamily loan
              processing.

 Lenders Were Not Selected for
 Monitoring According to
 HUD’s Policy

              Section 4-3 of HUD’s internal operating guide required that HUD monitor its
              program lenders by conducting a project review, quality control review, or lender



                                               5
           review. The reviews were to be conducted on a regular basis. High-volume
           lenders were to be reviewed annually. Program lenders that were not categorized
           as high-volume were to be reviewed once every 3 years. As shown in appendix
           B, 5 of 51 program lenders with loan originations totaling almost $88 million had
           not been monitored in violation of HUD’s policy.

HUD Needs To Implement Its
New Policy and Procedures


           HUD acknowledged that it did not always monitor its approved lenders as
           recommended by its own policy and procedures. HUD began reevaluating its
           monitoring processes and procedures in November 2008, but as of December
           2011 it had yet to complete its reevaluation or update its procedures. A major
           problem with its existing procedures was that they failed to define what lenders
           should be classified as low-, moderate-, or high-volume lenders. Under its new
           procedures, high-volume lenders will be defined as lenders with 20 or more
           originations (defined as issued commitments) per year over the previous 4 years.
           HUD will classify lenders as moderate-volume if the lenders originate 10 or more
           loans per year. All other lenders that originate less than 10 loans per year will be
           classified as low-volume lenders. The additional controls should assist HUD in
           determining which high-volume lenders to monitor annually to ensure compliance
           with underwriting requirements. The new procedures will also require HUD to
           assign numerical points for rejected applications, early defaults, early claims, or
           other material violations noted during its review. Based on the total amount of
           numerical points received, lenders may be placed on probation, suspension, or
           termination from being approved to process loans using the multifamily
           accelerated processing method. The additional controls should help HUD to
           mitigate the risk to the FHA insurance fund.

Recommendations



           We recommend that HUD’s Acting Director, Office of Multifamily Housing
           Development

           1A.    Complete and fully implement HUD’s updated procedures for selecting
                  lenders to monitor.

           1B.    Immediately classify HUD’s approved program lenders as low-,
                  moderate-, or high-volume lenders in accordance with its new updated
                  policy.

           1C.    Immediately prepare and implement a monitoring schedule based on the
                  number and type of monitoring reviews to be performed for each lender.



                                            6
                         SCOPE AND METHODOLOGY

We conducted the audit from April to October 2011 at HUD’s Office of Multifamily Housing
Development, Lender Qualification and Monitoring Division, located in Washington, DC, and our
offices located in Richmond, VA. The audit covered the period January 2005 through October
2011. We relied in part on computer-processed data. Although we did not perform a detailed
assessment of the reliability of data, we performed a minimal level of testing and found the data
to be adequate for our purposes. To accomplish our objective, we

       Interviewed HUD’s multifamily staff responsible for approving lender applications and
       monitoring lender performance.

       Reviewed applications of lenders approved to underwrite multifamily loans using the
       multifamily accelerated processing method.

       Analyzed HUD’s automated data and hard copy files related to 123 project monitoring
       reviews and 39 lender reviews performed from 2005 through 2011.

HUD had 90 approved program lenders as of April 2011. Of the 90 approved lenders, 51 lenders
had originated loans during the audit period. The FHA-insured loan portfolio of the 51 approved
lenders since its approval to participate in the program totaled more than $12.9 billion.

We reviewed the project, quality control plan, and lender reviews performed for the 51 lenders
that had originated loans during our audit period to determine whether HUD monitored its
program lenders at least once during a 3-year period, or annually for high-volume lenders as
required by its existing written internal operating procedures.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                7
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                  Program operations – Policies and procedures that management implemented to
                  reasonably ensure that a program meets its objectives.

                  Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

                  Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 8
Significant Deficiency


            Based on our review, we believe that the following item is a significant deficiency:

                HUD did not make sure that all of its program lenders were monitored and
                had not completed nor implemented its updated policy.




                                              9
                APPENDIXES

Appendix A

             AUDITEE COMMENTS




                    10
11
Appendix B

             PROGRAM LENDERS NOT MONITORED



                                   Number of insured      Value of
              Lenders                   loans          insured loans
Great Lakes Financial Group, LP            6           $30,157,800
Phares Company                            13            23,378,300
American Mortgage Solutions, LLC           1            15,006,200
Red Stone Agency Lending, LLC              2            14,306,700
Beacon Hill Mortgage Corporation           2             4,939,000
Totals                                    24           $87,788,000




                                      12
